      Department of Homeland Security

     ��������������������������


FEMA Should Recover $3.7 Million in Unneeded Funds
and Review the Eligibility of $344,319 of $5.84 Million in
    Public Assistance Grant Funds Awarded to the
 Borough of Beach Haven, New Jersey, for Hurricane
           Sandy Debris Removal Activities




OIG-14-54-D                                    March 2014

                               OFFICE OF INSPECTOR GENERAL
                                    Department of llomeland Security
                                     Wa.hingtoo, DC 2052~ ! www.oig.dhs.gov




MEMORANDUM FOR:                     John Covell




FROM:                               JohnV. ~~~~~~~-----
                                    Assistan   spector General
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Should Recover $3.7 Million in Unneeded Funds ond
                                    Review the Eligibility of $344,319 of $5.84 Million In Public
                                    Assistance Grant Funds Awarded to the Borough of Beach
                                    Haven, New Jersey, for Hurricane Sandy Debris Removal
                                    Activities
                                    FEMA Disaster Number 4086-DR-NJ
                                    Audit Report Number OIG-14-54-0

We audited Public Assistance grant funds awarded to the Borough of Beach Haven, New
Jersey (Borough) {FIPS Code 029-034940-00) for debris removal activities. Our audit
objective was to determine whether the Borough a=unted for and expended Federal
Emergency Management Agency (FEMA) grant funds according to Federal regulations
and FEMA guidelines. we conducted t his audit early in t he Public Assistance process
with the goals of (1) providing applicant s an opportunity as soon as possible after the
disaster event to locate documentation or corroborating evidence to support costs
claimed for disaster damages, and (2) mitigating the impact of fraud, waste, and abuse
of disaster assistance.

As of September 30, 2013, the cut-off date of our review, the Borough received a Public
Assistance award of $5.84 million from the New Jersey Office of Emergency
M anagement {State), a FEMA grantee, for damages resulting from Hurricane Sandy
which made landfall on October 29, 2012. The award provided 90 percent FEMA funding
for debris removal activities, emergency protective measures, and repairs to roads and
                                                                              1
bridges. The award consisted of five large projects and three small projects.

We audited one large project (Project 26) for debris removal activities with an award
totaling $4.85 million. The audit covered the period October 26, 2012, to September 30,


'Federal regulations in effect at the time of Hurricane Sandy set the large project threshold at 557,500.
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

2013, during which the Borough received an advance payment of $1.82 million from the
State. At the time of our audit, the Borough had completed work under the project but
had not submitted any claims for reimbursement of project expenditures to the State.
The Borough provided us with a list of debris removal expenditures (labor, equipment,
and materials; contract costs; and direct administrative costs) totaling approximately
$1.2 million that it planned to claim to the State under the award. We used this list of
expenditures to conduct the audit.

We conducted this performance audit between May 2013 and December 2013 pursuant
to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objective. To conduct this audit, we applied the statutes, regulations, and FEMA
policies in effect at the time of the disaster.

We judgmentally selected and reviewed project expenditures (generally based on dollar
value) that the Borough provided; reviewed applicable documents that the Borough, the
State, and FEMA provided; interviewed Borough representatives and State and FEMA
officials; reviewed the Borough’s procurement policies and procedures; reviewed
applicable Federal regulations and FEMA guidelines; and performed other procedures
considered necessary to accomplish our audit objective. We did not assess the adequacy
of the Borough’s internal controls applicable to its grant activities because it was not
necessary to accomplish our audit objective. However, we gained an understanding of
the Borough’s method of accounting for disaster-related costs and its policies and
procedures for administering activities provided for under the FEMA award.

                                           

                                  RESULTS OF AUDIT 


The Borough accounted for FEMA funds on a project-by-project basis as Federal
regulations and FEMA guidelines require. Additionally, the Borough complied with
applicable Federal procurement regulations for contracts (time-and-material) it
awarded for debris removal activities. However, we identified the following:

    •   $3,688,066 of funding that FEMA can deobligate and put to better use because
        the Borough no longer needs it to complete work under the project;

    •	 $651,592 of cash advanced under the project that the Borough can return to the
       State because final project costs are less than the amount advanced; and


www.oig.dhs.gov                             2	                               OIG-14-54-D

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


    •	 $344,319 of debris removal costs that the Borough plans to claim under the
       FEMA award that were either (1) not supported by adequate documentation or
       (2) not eligible under the Public Assistance program. Therefore, FEMA should
       disallow the $344,319 if the Borough claims the costs, unless the Borough
       provides FEMA with adequate supporting documentation for the costs, or
       provides additional documentation to show that the costs are eligible.

Finding A: Unneeded Funds

FEMA should deobligate $3,688,066 of funds awarded to the Borough and put those
funds to better use because the Borough no longer needs the funding to cover project
costs. FEMA awarded the Borough $4,858,359 under Project 26 to cover the costs of the
Borough’s debris removal activities. At the time of our audit, Borough officials told us
that the Borough had completed all authorized debris removal work under the project
and had incurred project costs totaling $1,170,293. Therefore, FEMA should deobligate
$3,688,066 of unneeded funding ($4,858,359 less $1,170,293) and put it to better use.

The unneeded funding occurred because the Borough entered into a shared services
agreement with Ocean County for debris removal activities shortly after FEMA approved
the $4,858,359 of funding under the project. Under the agreement, Ocean County
accepted full responsibility for debris removal activities within the Borough beginning on
November 19, 2012, and would claim such costs to FEMA under a separate project
worksheet. Consequently, the Borough no longer needs all of the project funding that
FEMA initially obligated.

Finding B: Overpayment

The Borough received an overpayment of $651,592 from the State for costs incurred
under Project 26. The overpayment occurred because the Borough’s final project costs
were less than the cash payment amount the State advanced for project costs.

In late December 2012, the State advanced $1,821,885 to the Borough under immediate
needs funding criteria to cover the estimated costs of debris removal. At the time of our
audit, the Borough had completed all project work and had incurred costs totaling only
$1,170,293, or $651,592 less than the amount advanced. Therefore, the State should
recover the $651,592 of excess funds advanced under the project.




www.oig.dhs.gov                             3	                                OIG-14-54-D

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Finding C: Supporting Documentation

The Borough could not provide adequate documentation to support $321,229 of project
expenditures. Federal cost principles at 2 Code of Federal Regulation (CFR) Part 225,
Appendix A, Section C.1.j., require that costs be adequately documented to be allowable
under a Federal award. The unsupported costs included:

       •	 $225,019 that two time-and-material contractors billed for labor and
          equipment hours that the Borough could not support with time sheets and
          equipment activity reports. Of the $225,019, $166,714 resulted from one
          contractor that could not provide any support to the Borough; the remaining
          $58,305 resulted from the other contractor not being able to support 3 days
          of debris removal work to the Borough;

       •	 $46,309 for debris removal contract ($42,610) and landfill costs ($3,699). The
          Borough provided a one-page summary document to support the costs, but
          could not provide source documentation such as contractor invoices and
          landfill load tickets to support the summary document;

       •	 $30,000 in equipment rental charges that the Borough could not support
          with invoices;

       •	 $11,764 in force account equipment costs that the Borough could not
          support with equipment activity logs or equivalent documentation;

       •	 $3,000 in force account labor costs that the Borough could not support with
          time and attendance records;

       •	 $4,137 of overtime costs for several Borough employees that the Borough
          could not support with time and attendance records indicating that the
          employees worked overtime on the days claimed; and

       •	 $1,000 that the Borough’s disaster support services consultant billed for
          direct administrative tasks from May 29, 2013, through August 1, 2013, that
          the Borough could not support with activity reports or timesheets.




www.oig.dhs.gov                            4	                               OIG-14-54-D

                         OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

Finding D: Applicable Credits

The Borough should reduce project expenditures it intends to claim by $17,227 for the
net proceeds it realized from the sale of scrap metal. FEMA’s debris removal pilot
program authorized under the SandyfRecoveryfImprovementfActfoff2013 allows
applicants to keep program income derived from recycled debris; however, the Borough
did not make a request to FEMA to participate in the voluntary pilot program.

The Borough earned $17,227 from the sale of disaster-related scrap metal during the
period of November 13, 2012, through February 18, 2013. Borough employees collected
scrap metal while removing disaster debris. To be allowable under Federal awards, costs
must be net of all applicable credits (2 CFR 225, Appendix A, Sections C.1.i and C.4). In
addition, FEMA Disaster Assistance Policy 9525.12 (DispositionfoffSalvageablefMaterials­
July 18, 2008) holds that costs directly tied to the performance of eligible work are
generally eligible for reimbursement, but the applicant must reduce the costs by all
applicable credits, such as insurance proceeds and salvage values, and must also cost-
share any income with FEMA

Finding E: Duplicate Costs

The Borough’s claim included $5,863 of duplicate costs as follows:

   •	 The Borough included invoice 13-1004 for $4,843 twice in its list of time-and-
      material expenditures.

   •	 The Borough included landfill ticket numbers 1503110 ($468.58) and 1504719
      ($551.42) twice. The Borough included the tickets once under a list of force
      account material expenditures and again under a list of time-and-material
      expenditures.


                                   RECOMMENDATIONS

We recommend the Director, New Jersey Sandy Recovery Office:

Recommendation #1: Deobligate $3,688,066 (Federal share $3,319,259) of unneeded
project funding (finding A).

Recommendation #2: Instruct the State to recover the $651,592 of excess funds it
advanced to the Borough under the project (finding B).




www.oig.dhs.gov                              5	                              OIG-14-54-D

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Recommendation #3: Disallow $321,229 (Federal share $289,106) of unsupported costs
unless the Borough provides additional documentation to adequately support these
costs (finding C).

Recommendation #4: Disallow $17,227 (Federal share $15,504) as ineligible for
unapplied credits the Borough received from the sale of disaster-related scrap metal
unless FEMA authorizes the Borough to participate in the debris removal pilot program,
which allows a subgrantee to retain income derived from recycled debris (finding D).

Recommendation #5: Disallow $5,863 (Federal share $5,277) of ineligible, duplicate
costs (finding E).



              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Borough, State, and FEMA officials during our
audit. We also provided a draft report in advance to these officials and discussed it at
the exit conferences held with FEMA and State officials on December 3, 2013, and with
Borough officials on December 4, 2013. Borough officials generally agreed with the
findings. FEMA and State officials did not comment on the findings.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include the contact information for responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Until we receive and evaluate your response we will consider the recommendations as
open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributions to this report are David Kimble, Director; William H. Johnson, Audit
Manager; Nadine F. Ramjohn , Auditor-in-Charge; and, Gary Alvino, Program Analyst.

Please call me with any questions at (202) 254-4100, or your staff may contact
David Kimble, Director, Eastern Regional Office at (404) 832-6702.




www.oig.dhs.gov                             6                                OIG-14-54-D

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

                                                                           Appendix

                                 Report Distribution

Department of Homeland Security
Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region II
Audit Liaison, FEMA (G-13-040-EMO-FEMA)

State
State Coordination Officer, New Jersey State Police, Homeland Security Branch
Executive Director, Governor’s Office of Recovery and Rebuilding, New Jersey
New Jersey State Auditor
Attorney General, New Jersey

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery and Accountability Transparency Board

Subgrantee
Manager, Borough of Beach Haven
Chief Financial Officer, Borough of Beach Haven




www.oig.dhs.gov                            7                               OIG-14-54-D

                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




www.oig.dhs.gov                         8                               OIG-14-54-D

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
